 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




HEAD START, TANF, AND CHILD CARE
       NEEDS ASSESSMENTS




                    JUNE GIBBS BROWN
                     Inspector General

                       OCTOBER 1999
                       OEI-05-98-00540
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago regional office prepared this report under the direction of William C. Moran,
Regional Inspector General, and Natalie Coen, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

Joe Penkrot, Project Leader                          Alan Levine, Program Specialist

Emily Melnick, Lead Analyst

Ianna Kachoris


   To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.

                     Reports are also available on the World Wide Web at:

                                http://www.dhhs.gov/progorg/oei

                     EXECUTIVE                      SUMMARY

PURPOSE

      To describe efforts to assess family needs and provide support services to low-income
      families receiving Head Start, Temporary Assistance to Needy Families (TANF) and Child
      Care and Development Fund (CCDF) subsidies.


BACKGROUND

Family Needs Assessments and Support Services

      Welfare recipients and other low-income families may need help in order to enter the
      workforce and remain self-sufficient. The replacement of the Aid to Families with
      Dependent Children program with TANF block grants heightens the importance of
      providing services that will enhance the employment outcomes for welfare participants.
      Federal legislation requires that both TANF and Head Start agencies assess participants’
      needs to help them address barriers to employment and self-sufficiency. There is no
      formal requirement that CCDF-funded child care programs or Child Care Resource and
      Referral agencies who administer subsidies assess family needs or offer support services.

      This report examines needs assessments and support services in these three programs in
      order to learn how to maximize efforts to help families reach and maintain
      self-sufficiency. It draws on interviews and reviews of case files, policies and procedures
      of Head Start grantees, TANF agencies and child care providers in six communities as
      well as with their respective State offices. We interviewed 77 parents or guardians of
      young children receiving Head Start, TANF and/or CCDF subsidized child care.

      We define support services as those which help low-income families overcome barriers to
      employment such as emergency assistance (e.g. food, housing, clothing), intervention (e.g.
      mental health, substance abuse, child abuse and domestic violence), child care,
      transportation and health care.


FINDINGS

Head Start uses needs assessments to help low-income families move towards
self-sufficiency



    Families’ Needs Assessments                1                                      OEI-05-98-00540
      All Head Start grantees we visited conduct an individual family needs assessment to
      determine the need for support services and provide a variety of referrals and services for
      families. Nearly all Head Start families we interviewed report receiving information,
      referrals and some services from Head Start grantees.

State and local TANF agency policies, as well as caseworker discretion, affect the
needs assessments, referral processes and the provision of support services
that help families reach and maintain self-sufficiency

      The TANF offices we visited focus almost exclusively on vocational needs. Most TANF
      agency policies indicate and staff respondents report that their focus is on assisting
      recipients make the transition from welfare to work. Support services to help families
      attain self-sufficiency are lacking in most cases.

Individual child care programs do not assess family needs. Although Child Care
Resource and Referral agencies are not required to assess family needs, some
may make informal assessments and refer families to needed services

      Some low income families may get referral assistance for support services if they make
      their families’ needs known when they call a child care resource and referral agency
      (CCR&R) for child care information or child care subsidy. The Federal CCDF block grant
      does not require child care programs or providers to assess family needs or offer
      additional services. Additionally, States we visited do not require families using CCDF
      child care subsidies be assessed for support needs.

The Head Start grantees, TANF agencies, Child Care Resource and Referral
agencies and child care providers we visited do not coordinate around individual
families’ needs assessments. However, in some sites we visited, these agencies
will make referrals to other agencies and frequently work together on community
issues

      Although they all serve low-income families, some of whom are the same families, none of
      the Head Start, TANF, CCR&Rs and child care providers we visited coordinate around an
      individual family’s needs. Lack of coordination around a family’s needs assessment may
      affect families’ access to resources. In some States we visited, Head Start, TANF and
      CCR&R agencies communicate on matters not directly related to individual families and
      their needs assessments. While families enrolled in the Head Start program are more likely
      to have their needs assessed, be referred and access services than the families we
      interviewed receiving TANF or CCDF benefits, we found families in these three programs
      often lack knowledge about services when they are available in their communities.




    Families’ Needs Assessments                2                                      OEI-05-98-00540
OPPORTUNITIES FOR IMPROVEMENT

Head Start, TANF and child care programs serve many of the same low-income families who are
trying to reach or maintain self-sufficiency. Both Head Start grantees and TANF agencies are
required by law to assess families’ needs and provide families with support services. Head Start
grantees are also required to partner with other agencies. In order to maximize efforts to help
families reach and maintain self-sufficiency, the Administration for Children and Families (ACF)
could:

Explore strategies that encourage and facilitate coordination between agencies
around needs, referrals and provision of services for families

       As economic conditions change or the pool of easier-to-serve clients diminish, agencies
       will face increased demands on their resources, both in the numbers of families needing
       services as well as the extent of their needs. Coordination between Head Start, TANF and
       child care programs, as well as with other community agencies, will become more
       important in providing needed services to families trying to attain self-sufficiency.

       The ACF could address current issues involving the coordination of families’ needs,
       referrals and provision of services and anticipate future trends that may require additional
       interagency coordination. The ACF could devise ongoing methods to assist State, local
       and community agencies with communication and coordination in providing services based
       on family needs. For example, ACF could develop technical guidance on information
       sharing, convene regional or national conferences on coordination and communication
       between agencies, and disseminate best practices of coordination. The TANF and child
       care programs may be able to use Head Start grantees as resources to help them improve
       needs identification.

Encourage Head Start grantees, TANF offices, and child care programs to
increase parent awareness about the resources they and other community
agencies provide

       The ACF could encourage Head Start grantees, TANF agencies and child care programs
       to train front-line staff to act as resources to identify community services. Many parents
       do not know where to find needed services. They are unaware that Head Start, TANF
       offices and child care programs are resources that may help them identify services that
       may be available to them in their communities.

       In addition to these opportunities for improvement, there is one other area that the Office
       of Inspector General (OIG) will evaluate. Since both agency and family interviews
       indicated that in most TANF agencies we visited, needs assessments and referrals to
       support services are not regularly being offered, the OIG will examine the degree to which



     Families’ Needs Assessments                3                                     OEI-05-98-00540
    States are complying with the law requiring them to “make an initial assessment of the
    skills, prior work experience and employability of each [TANF] recipient”1 and “to
    conduct a program ... that... provides parents with support services to enable them to
    leave the program and become self-sufficient.”2


AGENCY COMMENTS

    In their written comments, ACF wanted to distinguish between their legal authority to

    require State compliance and their encouragement for States to move in directions viewed

    as model practices. They also wanted to document certain actions they had already taken

    to address some of the underlying concerns expressed in our report. The full ACF

    comments are contained in the Appendix. Where appropriate, we changed the report to

    reflect their comments and concerns.


    We recognize that the nature of the relationship between ACF and States has significantly

    changed since the implementation of the Personal Responsibility and Work Opportunity

    Reconciliation Act of 1996 (PRWORA). The ACF’s primary role is to ensure States’

    compliance with TANF and CCDF regulations, while PRWORA gives the States

    unprecedented authority to administer the programs according to their own policy choices. 

    The State’s TANF programs that have emerged are in various stages of development. 

    States are still experimenting with ways to meet the PRWORA goals of reducing welfare

    dependency and helping participants reach and maintain 

    self-sufficiency.


    We agree with ACF that the nature, mission and goal of each State’s TANF program is

    not centered on family assessments. We further agree with ACF that TANF does not

    require States to enter into an individual responsibility plan with their clients. Our intent in

    the report is not to become overly-focused on a certain kind of formal needs assessment,

    but rather to meet the self-sufficiency needs of low-income parents and families served by

    these three programs. In order to help clients become self-sufficient, States first have to

    know what needs have to be met. In reviewing case files and discussing individual parent

    and family needs, we did not find, for the most part, that needs were being appropriately

    identified, either in a formal or informal way. Therefore, we have maintained our first

    suggested action but deleted the word “assessment” to avoid the impression we are

    encouraging TANF agencies and Child Care programs to conduct the same type of formal

    assessments as Head Start grantees.



    1
        Public Law 104-193, Section 408(b)1
    2
     Public Law 104-193, Section 402(a)(1)(A)(i)




  Families’ Needs Assessments                      4                                   OEI-05-98-00540
  The ACF supports the concept that all child care providers have information on
  community resources to assist families with assessments. We agree that many child care
  providers are not trained to do the assessment themselves, nor that they have sufficient
  resources to hire support service staff. However, we did not find examples of child care
  programs or State agencies in the sites we visited which emphasize linking families to
  community services which can provide assessments or needed services. We believe
  further attention should be focused on ensuring that parents receiving subsidized care have
  access to information about community resources.

  The ACF stated that some collaboration among these three programs takes place. We
  support this collaboration. We emphasize that focusing local-level collaboration around
  identifying and providing for families’ needs remains an opportunity for improvement. If
  families participate in two or three of these programs, local-level coordination can ensure
  a more focused plan for individual families and improve the efficiency of resource
  utilization.

  Finally, as welfare caseloads continue to drop, States are increasingly looking for ways to
  help remaining recipients make the transition from welfare to work. Many of the
  recipients remaining on the rolls face myriad personal and family problems which may
  hinder rapid employment and long-term attachment to the labor force. Appropriate
  identification of needs can enable States to provide or refer recipients to the services
  which will help facilitate a successful transition to employment and self-sufficiency.

  The Office of the Assistant Secretary for Management and Budget also commented on the
  report. They conceptually agree with the report, but point out that limited funding and the
  reduced Federal role in welfare administration may hamper the coordination efforts we
  recommend.




Families’ Needs Assessments                5                                      OEI-05-98-00540
                          TA B L E                     OF              CONTENTS

                                                                                                                               PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


     Head Start Family Needs Assessments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


     TANF Family Needs Assessments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


     Child Care Programs and Child Care Resource and Referral Agencies Needs Assessments . 17


     Agency Coordination . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


OPPORTUNITIES FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


     ACF Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27





        Families’ Needs Assessments                                6                                                   OEI-05-98-00540
                                  INTRODUCTION

PURPOSE

      To describe efforts to assess family needs and provide support services to low-income
      families receiving Head Start, Temporary Assistance to Needy Families (TANF) and Child
      Care and Development Fund (CCDF) subsidies.


BACKGROUND

      Federal legislation involving welfare and Head Start changed the relationship between
      Head Start and TANF and has had considerable impact on child care as well. The
      Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (PRWORA)
      replaced Aid to Families with Dependent Children (AFDC) with TANF block grants to
      States. The PRWORA imposed work requirements and lifetime limits on TANF
      recipients. Despite large reductions in the number of welfare recipients in the last 5 years,
      there are still nearly eight million TANF recipients, approximately two-thirds of them
      children.

      The PRWORA also replaced existing child care funding for low-income families with a
      single integrated Child Care and Development Block Grant. Congress increased child care
      funding for fiscal years (FY) 1997-2002 to $20.9 billion, a $4 billion increase over the
      previous funding cycle. States use these funds to reimburse child care programs for
      serving eligible families or providing parents with child care certificates or vouchers to
      purchase child care. Program goals include: promoting parental choice, encouraging
      States to provide consumer education to parents, and helping States implement health,
      safety, licensing and registration standards.

      The Head Start program, a comprehensive child development program funded at $4.35
      billion for FY 1998, with over 1,400 grantees, serves nearly 800,000 low income children
      and their families. Revised performance standards require Head Start grantees to
      coordinate with TANF, child care programs, and other social service agencies.

Needs Assessments and Support Services

      Welfare recipients and other low-income families may need help beyond child care in order
      to enter the workforce and remain self-sufficient. Federal legislation requires that both
      Head Start and TANF agencies assess participants’ needs to help them address barriers to




    Families’ Needs Assessments                 7                                      OEI-05-98-00540
         employment and self-sufficiency. Child care programs are not required to assess family
         needs.

         The replacement of AFDC with TANF block grants heightens the importance of providing
         services that will enhance the employment outcomes for welfare participants. States must
         and are beginning to prepare to serve welfare recipients with tougher problems, moving
         beyond the “work first” approach to programs designed to help families access a wide
         range of services.3 In this inspection, we define support services as services which help
         families overcome barriers to employment such as emergency assistance (e.g., food,
         housing, clothing, and transportation), intervention (e.g., mental health, substance abuse,
         child abuse, and domestic violence), as well as employment services, child care,
         transportation and health care.4

Head Start Requirements

         Head Start grantees offer parents the opportunity to develop and implement an
         individualized family partnership agreement that describes family goals, responsibilities,
         and strategies for achieving these aims. Head Start’s Performance Measures pertaining to
         the Family Partnership Agreement require that grantees work with parents to identify and
         access services and resources appropriate for each family’s interests and goals. Support
         services that should be identified and accessed include emergency assistance, intervention
         and employment services. Head Start’s follow-up with each family should ensure the
         “kind, quality and timeliness” of the services received through referrals.

         Head Start agencies are required to take an active role in community cooperation among
         agencies to improve the delivery of services to children and families. Head Start’s
         Performance Measures emphasize that providing linkages to other service sources in the
         community, particularly child care, is a critical role for Head Start grantees. Head Start
         grantees are also required to partner with other agencies, rather than provide all services
         for Head Start families. The Head Start Family Partnership Agreement, “must take into
         account and, build upon where appropriate, information obtained from the family and
         other community agencies concerning preexisting family plans.”



         3
         National Governors Association, “Working Out of Poverty: Helping Welfare Recipients Stay Employed,”
1998 and “Ancillary Services to Support Welfare to Work,” Mathmatica Policy Research, 1998.


         4
          There is no accepted definition of what constitutes support services. In this report, we use the set of
support services used in the ASPE-funded, ACF-sponsored “Ancillary Services to Support Welfare to Work,”
distributed to all attendees of ACF’s Welfare Reform Promising Practices National Conferences..




       Families’ Needs Assessments                        8                                             OEI-05-98-00540
Temporary Assistance to Needy Families Requirements

      Under PRWORA, States are required to “make an initial assessment of the skills, prior
      work experience and employability of each [TANF] recipient” and refer them to support
      services as necessary5. Each States’ TANF agency must decide if it wants to develop an
      individual responsibility plan for a particular recipient. In addition to setting forth an
      employment strategy for the recipient, the individual responsibility plan describes the
      specific services the State will provide to the family to enable the parent to acquire and
      maintain employment. Further, TANF agencies often contract with other community
      agencies to provide education, training, child care and transportation services for
      recipients.

Child Care Requirements

      The CCDF block grant does not require child care programs or providers to assess family
      needs or offer additional services. However, the CCDF block grant does require States to
      coordinate the provision of child care services with other Federal, State, and local child
      care and early childhood development programs, particularly TANF, public health,
      employment services and public education. In recent years, many child care programs and
      Head Start programs have worked together to provide extended hour care and additional
      education and support services.

      Other community-based child care programs may offer needs assessments and referrals.
      Child Care Resource and Referral Agencies (CCR&R) may provide assessments and
      referrals to families who receive CCDF-funded subsidies. While CCR&Rs do not provide
      direct child care services, many serve as the State-contracted voucher management
      agency. Nationally, CCR&R’s primary mission is to link parents to child care and
      promote universal access to quality child care. The CCR&Rs whose missions are defined
      by their communities, often serve a multi-dimensional role of promoting integrated
      supports to children and families. In addition, some social service agencies administer
      child care programs and may provide additional services to these families.


SCOPE

      This report examines needs assessments and support services in these three programs in
      order to learn how to maximize efforts to help families reach and maintain
      self-sufficiency. We compared the needs assessments, referrals and provision of support
      services for families with children enrolled in Head Start programs, or who are TANF


      5
          Public Law 104-193, Sections 402(a)1(i) and Sec. 408(b)




    Families’ Needs Assessments                       9                              OEI-05-98-00540
         recipients, or who use CCDF child care subsidies in the local communities we visited. We
         examined families’ needs related to the following areas: child care, health promotion and
         treatment, mental health, nutrition, domestic violence, intervention services, emergency
         assistance and employment services. We also examined the coordination, referrals and
         linkages among Head Start programs, TANF agencies and child care programs relating to
         these needs and services.

         We looked at families in poverty with children between 3 and 5 years old since they
         comprise 96 percent of Head Start families. We interviewed families with children in
         licensed and regulated child care settings who use CCDF funded child care certificates to
         pay for those services or fill a CCDF funded contracted slot.


METHODOLOGY

         We made onsite visits to one community in California, Illinois, Nebraska, New York,
         North Carolina and Texas. We selected these States based on TANF caseload, Head Start
         enrollment, expert recommendation and geographic location. We selected individual sites
         based on a mix of urban, rural and suburban settings. We interviewed Head Start
         administrators and Family Service Workers and other staff at each Head Start site.6 In
         California, we visited two Head Start grantees. At each local TANF office, we spoke with
         directors, supervisory staff, and caseworkers. In New York, we visited two local TANF
         offices. At the CCR&R agencies, we interviewed a director or someone responsible for
         responding to parents’ child care needs. At the child care providers, we interviewed the
         director. In Nebraska and Texas, we also interviewed directors of other social service
         agencies that conduct family needs assessments. In each State we visited, we interviewed
         directors or representatives from the State TANF and State lead child care offices.




         6
          These Head Start employees may have different job titles at different locations. For the purpose of this
report, we will refer to them as Family Service Workers. Likewise, we will refer to TANF employees, whose job
function is to assess families’ needs and refer families for services, as caseworkers.




      Families’ Needs Assessments                        10                                           OEI-05-98-00540
  We examined the available family files
  to determine if needs assessments had                      FAMILIES
  been completed, what action had
  occurred and if any coordination           Head Start Only                     29
  between agencies took place. In            TANF Only                            8
  addition, we interviewed parents who       Child Care Only                      9
  were randomly selected from lists          Head Start and TANF                 11
  provided by the programs whose             Head Start and Child Care            7
  children are in Head Start, and/or who     TANF and Child Care                  9
  participate in the TANF program,           Head Start, TANF and Child Care      4
  and/or receive child care subsidies for
  their children. We interviewed a total     Total Families Interviewed           77
  of 77 families. We made our site
  visits in September and October 1998.

  We did not examine any Early Head Start programs which is a separate program serving
  children ages 0-3 in full day, full year programs. We make neither national projections
  based on our case study sites nor rank individual Head Start grantees, TANF agencies or
  child care programs. Rather, our purpose was to gain an increased understanding of the
  needs assessment processes in these programs and to identify ways to improve their
  effectiveness in meeting families’ needs for support services.

  Our review was conducted in accordance with the Quality Standards for Inspections
  issued by the President's Council on Integrity and Efficiency.




Families’ Needs Assessments                 11                                 OEI-05-98-00540
                                    FINDINGS

Head Start uses needs assessments to help low-income
families move towards self-sufficiency
All seven Head Start grantees we visited administer an individual family needs
assessment to determine the need for support services and provide a variety of
referrals and services to families

      Head Start grantees use different models to meet the objective of strengthening families
      through links with community services. After reviewing Head Start grantee assessment
      instruments, agency policy and procedures, interviewing Head Start parents, Head Start
      administrative and front-line staff, and reviewing available client files, we found that needs
      assessments vary in content, length and use. Assessments range from a one-page checklist
      of services to seven pages of detailed questions and probes. Variations between grantees
      in the procedures for using needs assessments include: how and when assessments are
      completed, who determines what action should be taken, if a referral will be made or a
      service offered on site, if referrals are written and documented in case files, and if follow-
      up is made.

      Head Start grantees use information obtained from the needs assessments to identify
      services or workshops they can offer families or to provide referrals to community
      providers. In five of the seven grantees we visited, families complete the needs assessment
      on their own. The Family Service Worker (FSW) then reviews the assessment with the
      family, usually at the first home visit, and will make referrals for any needed support
      services. At the Illinois and New York Head Start grantees we visited, the FSW
      completes the assessment form with the family. At another grantee, the FSWs do not
      participate in the completion of the needs assessment, but that Head Start grantee uses the
      assessments to plan onsite workshops to meet families’ needs.

To meet families needs, Head Start grantees make referrals to outside service
providers and provide on-site services

      Head Start referral processes differ by grantee in the manner a referral is made and

      documented. All of the Head Start grantees we visited give referrals to families in need of

      services. Head Start referral processes in the different grantees we visited include:


      C         informal information sharing between staff and families

      C         formal written procedures for documentation and follow-up




    Families’ Needs Assessments                12                                      OEI-05-98-00540
      C         the FSW calls ahead to service providers to verify availability of service for the
                families
      C         Head Start staff make group decisions regarding what services families should
                access.

      In six of seven Head Start grantees we visited, FSWs determine which families should be
      given referrals for support services. Two of these six grantees (Illinois and Texas) report
      that the FSW, teacher, education coordinator and/or health coordinator hold “staffings” to
      determine referrals. Four Head Start grantees give the family a written referral, and two
      grantees make initial phone contact with the provider verifying availability of the needed
      service before referring the family. At one Head Start grantee, teachers provide referrals
      to families. Almost all of the Head Start grantees we visited indicate that they follow up
      on referrals. Another grantee we visited provides referrals and follow up exclusively on
      services for children.

      While some Head Start grantees emphasize referrals to outside service providers, others
      elect to meet families’ needs through onsite workshops and services rather than through
      referring families to other community agencies. Families and staff at these grantees report
      that workshops are well attended. These grantees provide workshops on a variety of
      topics including those that families indicate on their needs assessment form are of concern
      to them.

      Although they may provide effective ways to identify or address families’ needs, the
      various models of assessments, referrals and provision of services that we observed do not
      ensure that everyone’s needs are identified and resolved. For example, many Head Start
      grantees report that families often approach a teacher, rather than an FSW, with a problem
      or concern. Teachers may not be specifically trained to help families access services or
      make appropriate referrals.

      Also, while most Head Start grantees we visited rely on FSWs to refer families to needed
      services, some Head Start grantees provide information to their families by giving them
      copies of community resource books. Though useful for some families, providing a list or
      book may not help families with low literacy levels or non-English speakers. Additionally,
      a resource book alone may not help families find the providers who can best meet their
      needs. Similarly, Head Start grantees that focus on providing workshops often do this in
      lieu of referring families to other community agencies. Consequently, families’ needs may
      not be individually addressed and services already available in the community may be
      duplicated.

Some Head Start grantees recognize the need to conduct the needs assessment
later in the school year




    Families’ Needs Assessments                   13                                     OEI-05-98-00540
      Delaying the timing of assessing families’ needs may improve the ability of Head Start
      grantees to effectively provide services. Historically, most Head Start grantees administer
      the needs assessment either during the Spring application period or at the beginning of the
      school year. According to most agency staff and families that we interviewed, some
      families need to establish trust before feeling comfortable expressing their needs. In
      response to this apprehension, beginning this year, Head Start families in the grantees we
      visited in California, Illinois and New York will complete the needs assessment later in the
      school year after relationships with Head Start staff are more established. In Illinois, the
      FSW will conduct the needs assessment and discuss the child’s educational and
      developmental screening at the same time later in the school year.

      Before the school year begins, families must complete large amounts of paperwork to
      enroll their child in Head Start and the needs assessment form may not hold importance to
      them at that time. A few families we spoke with who had a completed needs assessment
      in their Head Start file and/or who should have completed an assessment at the time of our
      interview, report that they do not recall filling out a Head Start form asking them about
      their family needs. Others report that they did not indicate needing any services when they
      filled out their form. Parents may not recall completing the needs assessment or
      appreciate how Head Start uses it to help them meet their needs. Consequently, the North
      Carolina grantee we visited encourages FSWs to focus more attention on the needs
      assessments form and process to make it more meaningful for parents.

      The Illinois and North Carolina Head Start grantees we visited periodically reassess
      families for additional needs. These grantees regularly revisit the needs assessment at
      home visits and at other parent meetings. These additional visits are important because
      families’ needs may have changed since the needs assessments were first completed, or
      families may not always indicate their needs on the assessment forms.

Nearly all Head Start families we interviewed report receiving information,
referrals and some services from Head Start grantees

      We found that low-income families enrolled in the Head Start program are more likely to
      have their needs assessed, be referred and access services than the families we interviewed
      receiving TANF or CCDF benefits. Head Start families we interviewed report receiving
      referrals and some services including transportation, child care, General Equivalency
      Degree classes or English as a Second Language classes, counseling services, and health
      care. One parent said she “loves Head Start because even though it’s for children it helps
      parents.” Despite these successes, some Head Start parents we interviewed need support
      services, but do not know that they can ask Head Start grantees for assistance as problems
      arise or that Head Start may facilitate access to services.




    Families’ Needs Assessments                14                                     OEI-05-98-00540
State and local TANF agency policies, as well as caseworker
discretion, affect the needs assessments, referral processes
and the provision of support services that help families
reach and maintain self-sufficiency
      The PRWORA legislation requires that TANF agencies make an “initial assessment of the
      skills, prior work experience and employability of each recipient,”and requires States “to
      conduct a program ... that... provides parents with support services to enable them to
      leave the program and become self-sufficient.”7 Most TANF agency policies indicate and
      staff respondents report that their focus is on assisting recipients make the transition from
      welfare to work. Consequently, in four of the seven TANF offices we visited, needs
      assessments and services provided to families exclusively focus on child care and
      transportation, and not other barriers to employment, such as emergency assistance (e.g.,
      food, housing, clothing, and transportation), intervention (e.g., mental health, substance
      abuse, child abuse, and domestic violence), as well as employment services, child care,
      transportation and health care.

State and Local Policies

      While five of seven local TANF agencies we visited have policies and procedures for
      assessing the needs of recipients, the methods by which they assess and the content of
      their assessments vary. At intake, most TANF recipients complete a brief skill and
      employability assessment and are asked if they have child care or transportation needs that
      would prevent them from holding a job. In four of the seven TANF offices we visited,
      caseworkers report they are not required to refer families to support services. In New
      York, the only referral obligation of caseworkers is to provide recipients with the names
      of two child care providers who have space available.

      There is no assurance that families are asked about their need for services. In three TANF
      offices we visited, if a recipient identifies a domestic violence, substance abuse, or mental
      health problem, the caseworkers will refer them for professional treatment. But these
      services are “client driven,” i.e., referrals for services are determined by what recipients
      indicate rather than caseworkers probing for support services that families need.

      Two TANF offices we visited in North Carolina and Illinois use needs assessment
      techniques similar to Head Start. Recipients undergo a detailed assessment which
      addresses a wide range of support services. In fact, North Carolina caseworkers go over a
      support services checklist with families every 6 months or at each meeting to determine if


      7
       Public Law 104-193, Section 402(a)(1)(i)




    Families’ Needs Assessments                   15                                  OEI-05-98-00540
      family needs are being addressed. Illinois is implementing a new process where
      caseworkers will informally update the assessment at every meeting with recipients. No
      other TANF offices we visited reassess recipient’s needs.

Caseworker Discretion

      In Illinois, caseworkers not only provide recipients with referrals for a broad range of
      services, but can only make referrals to providers with whom they verify the providers
      availability to serve the recipient. Illinois caseworkers use a written referral form in
      triplicate with a copy for the caseworker, the family and the service provider. They also
      contact the service provider by telephone, note the action in the case file and follow up to
      see if the family received the services.

      Some caseworkers we spoke with report they try to help meet recipient’s needs on a
      case-by-case basis even though their State procedures do not require them to help families
      find services. In New York and California, caseworkers we interviewed report routinely
      using their own community lists and resources to help families access programs like Head
      Start and community food pantries. However, this is not agency protocol.

Recipient Responses

      Twenty-three of thirty-two TANF recipients interviewed report that TANF caseworkers
      had neither assessed nor addressed their families’ needs. Most recipients report that
      caseworkers did not ask them if they need any support services, nor did they inform them
      of any available services through TANF or in the community. One parent who needs
      housing, says that she “did not learn about any services from the TANF agency and didn’t
      know they could help with services.” Some recipients have seen multiple caseworkers and
      did not know who they should contact to ask for help. Of the TANF recipients we
      interviewed who had been assessed, some were given referrals from their caseworkers.
      Most of these recipients found this information helpful.

      In some cases recipients face problems accessing needed services when services relate
      directly to employment. In New York, one recipient says her TANF benefits stopped
      when the transportation subsidies she needed to get to work never materialized, causing
      her to lose her job. Another recipient reports that she was “only told about job training.”
      When she asked her caseworker for help with transportation she “was told to call 411 (the
      directory assistance phone number).” Most families do not know if they can get
      information about community resources and services from their TANF office. A few
      caseworkers we interviewed report that they are not trained well enough to help families
      with the types of problems that arise.




    Families’ Needs Assessments                16                                     OEI-05-98-00540
Individual child care programs do not assess family needs.
Child Care Resource and Referral agencies are not required
to assess family needs, but some may make informal
assessments and refer families to needed services
     Neither Federal nor State law require that families using CCDF child care subsidies be
     assessed for needs beyond child care or offered additional services. In addition, CCDF
     does not provide specific funding for family needs assessments. None of the child care
     providers we visited administer needs assessments to their families. These child care
     providers do not consider it their responsibility to help families access support services.
     The child care directors we met with report little, if any, contact with community agencies.
     Further, most child care staff we interviewed know little about community services and do
     not routinely refer families to community services. One director reports that she “assumed
     that families would get information from public aid.”

     However, one child care director we interviewed espouses views similar to Head Start’s
     philosophy. He believes that in order to educate children, he must help their families
     access services. Along with other respondents, he feels:

               Families have lots of problems accessing services. They don’t even receive child care subsidy
               information from the welfare office and don’t know they are available. Families are intimidated
               to ask welfare caseworkers for help.

     Some low income families may get referral assistance for support services if they make
     their families’ needs known when they call a CCR&R for child care information. The
     CCR&Rs we visited report that other family needs may emerge when determining
     eligibility for subsidized child care or when providing child care information. These
     CCR&Rs will help families access needed services beyond child care, like family
     counseling, emergency services, transportation, education and job training. Many
     CCR&R staff report families’ awareness of community resources and services is scarce.



The Head Start, TANF, Child Care Resource and Referral and
child care programs we visited do not coordinate around
individual families’ needs assessments. However, in some
sites we visited, these agencies will make referrals to other
agencies and frequently work together on community issues




   Families’ Needs Assessments                       17                                          OEI-05-98-00540
Coordination of families’ needs assessments between agencies has not yet
evolved

      The welfare reform legislation that created TANF “affects not only needy families, but
      also intergovernmental relationships....It transforms the way agencies do business,
      requiring they engage in genuine partnerships with each other.”8 Although they all serve
      low-income families, some of whom are the same families, none of the Head Start,
      TANF, and child care providers we visited coordinate around an individual family’s needs.

      Federal guidance on coordination around families’ needs is unfocused. Head Start
      performance standards require that the Family Partnership Agreement consider and build
      on any other family plans from other community agencies. However, only two of seven
      Head Start grantees we visited ask families if they have plans or agreements with other
      agencies. There are no specific Federal requirements that TANF offices or individual child
      care programs coordinate around individual assessments. The Child Care Bureau believes
      that State and local child care planning should promote comprehensive services to families
      by linking child care to critical services like health, family support services, employment
      services, transportation, housing, etc. State Lead Child Care agencies are required to
      coordinate the provision of services with other programs including TANF and early
      childhood developmental programs.

      Very limited progress towards coordinating around families’ needs assessment has begun
      in some agencies. In North Carolina, a Head Start respondent said they are developing a
      written agreement with the TANF agency to share information on families’ needs
      assessments. The North Carolina TANF director indicated that they had considered
      including the Head Start Family Support Workers in their staffings to discuss families’
      needs. In Nebraska, Head Start grantees met once with the State TANF agency to
      suggest coordinating around families’ needs assessments, but no agreement resulted from
      this meeting. Two Head Start directors we met with indicated a willingness to coordinate
      with other agencies on needs assessments, but are unsure how to proceed.

      Not everyone agrees that agencies should exchange information on individual family’s
      needs. Some workers feel that confidentiality issues prohibit sharing of data between
      agencies. One Head Start FSW said that it is not her job to discuss referrals with the
      welfare office and job services. Other respondents fear that staff in other agencies may
      not be knowledgeable about where to refer families for services or trained to assess family
      needs. Some Head Start employees believe they (or their contractors) can provide better
      service to families at the Head Start site, rather than referring families elsewhere for some
      services.


      8
       Preamble to final rule, 64 FR17722.




    Families’ Needs Assessments                18                                      OEI-05-98-00540
Lack of coordination may affect families’ access to resources

      Although Head Start, TANF and CCR&R agencies have different missions, they share a
      goal of helping families toward self-sufficiency. The absence of coordination around a
      family’s needs assessment may hinder a family’s ability to become self-sufficient. For
      example, one social service agency respondent reports that, in order to receive services,
      families may promise different things to different agencies on family partnership
      agreements or responsibility plans. These agreements or plans may pose conflicts and/or
      confuse families regarding deadlines and priorities. Moreover, agencies may penalize
      families for failing to live up to the terms of their contracts and agreements.

      Communities we visited varied in the extent of support services available to low-income
      families. In communities without many services, the lack of coordination between
      agencies may strain finite resources, decreasing the likelihood of families finding and
      accessing services. In contrast, in communities with more resources, duplication of
      services may result from a lack of coordination between Head Start, TANF and child care
      programs. One Head Start grantee we visited, for example, offered on-site services
      instead of referring families to other community agencies which provide the same service.
      Two additional respondents in other States were concerned about their agencies offering
      the same services that other community providers offered.

In some communities that we visited, Head Start, TANF and CCR&R agencies
communicate on matters not directly related to individual families and their needs
assessments

      While there is no sharing of information on individual families’ needs, most Head Start,
      TANF and CCR&R staff routinely refer clients to each other’s agencies and some inform
      other agencies of a family’s participation in their programs. Almost all Head Start
      grantees we visited ask families if they access services at other community agencies. In
      Illinois the TANF agency provides some Head Start grantees with lists of TANF
      participants in nearby zip code areas, allowing Head Start to target their recruitment
      efforts. In California, TANF caseworkers visited Head Start grantees to inform staff and
      parents about welfare reform changes. Also in California, Head Start recruitment
      information is sometimes included with welfare checks.

      At some sites we visited, we found that numerous formal and informal agreements exist
      between agencies, including referrals from health services, child welfare, substance abuse,
      domestic violence and food pantries. In Nebraska, the TANF office we visited contracts
      with 11 local hospitals to take Medicaid applications for emergency room patients, assess
      their needs and refer them to appropriate agencies for social services. In North Carolina,
      Smart Start is a community partnership aimed at better preparing young children to enter
      school and is comprised of representatives from agencies such as Head Start, the



    Families’ Needs Assessments                19                                    OEI-05-98-00540
  Department of Social Services, and local health and mental health agencies.

  Head Start, TANF and CCR&R management staff often serve on community planning
  councils and interagency boards and workgroups, both locally and at the State level. To
  overcome some of the problems created by the lack of coordination, some multi-agency
  partnerships evolved in some communities that focus on particular community needs. In
  these instances, agencies sharing common goals are working together to serve children
  and their families. However, these councils, boards and workgroups do not resolve all
  interagency communication and coordination issues. One respondent states that the
  existing councils and projects are “excellent networking vehicles, but none have broken
  through to a collaborative effort [because]... agencies are afraid of losing their identity.
  Dwindling resources make us come together to work together. But some [agencies] are
  also competing for [clients].”




Families’ Needs Assessments                20                                      OEI-05-98-00540
                          OPPORTUNITIES
                         FOR IMPROVEMENT

      Though they serve many of the same low-income families, Head Start, TANF and child

      care programs vary substantially in the extent to which needs are assessed and addressed. 

      Both Head Start grantees and TANF agencies are required by law to assess families’ needs

      and provide families with support services. We found that families enrolled in the Head

      Start program are more likely to have their needs assessed, be referred to and access

      services than families receiving TANF or CCDF benefits. Needs assessments can be an

      important tool in determining what services families need in order to become self-

      sufficient.


      Since the enactment of welfare reform, States have reduced welfare caseloads

      substantially. States’ efforts, as well as a healthy economy, have enabled many TANF

      recipients to find employment and work towards self-sufficiency. As economic conditions

      change or the pool of easier-to-serve clients diminishes, all three agencies will face greater

      difficulties in serving families trying to reach or maintain self-sufficiency. We have

      identified promising practices to encourage agencies to begin developing more effective

      means to assess and address the needs of low-income families, including the coordination

      of services to maximize the resources that enable families to realize 

      self-sufficiency.



The Administration for Children and Families could further explore
strategies that encourage and facilitate coordination between agencies
around needs, referrals and provision of services for families

      The ACF could address current issues involving the coordination of families’ needs,
      referrals and provision of services and anticipate future trends that may require additional
      interagency coordination. Coordination around families’ needs between Head Start,
      TANF and child care programs, as well as with other community social service agencies,
      will become increasingly important in providing needed services to families working
      towards self-sufficiency. Agencies will face increased demands on their resources, both in
      the numbers of families needing services as well as the extent of their needs.

      Head Start, TANF and child care programs may benefit by coordinating with other
      agencies based on families’ needs. Coordination may allow for increased awareness of
      existing community services, more efficient use of resources, and reduced duplication of




    Families’ Needs Assessments                 21                                      OEI-05-98-00540
      services. Further, coordination may permit agencies to specialize their services. The ACF
      could devise methods to provide ongoing guidance and support to State, local and
      community agencies delivering services to low-income families. Specific steps ACF could
      take include:

      C	        developing technical guidance addressing broad conceptual issues such as
                confidentiality, jurisdiction, and information sharing,

      C	        convening regional or national conferences highlighting the best coordinating and
                communicating practices among agencies,

      C	        disseminating best practices detailing the use of existing avenues for
                communication and coordination. Planning commissions and/or interagency
                workgroups exist at every site we visited. These entities provide many
                opportunities to resolve differences and share information on common and
                cross-cutting issues.


The Administration for Children and Families could encourage Head
Start grantees, TANF offices and child care programs to increase
parent awareness about the resources they and other community
agencies provide

      We found that families in all three programs lack knowledge about available services and

      are uncomfortable expressing their families’ needs. Many parents do not know where to

      find needed services or that Head Start, TANF offices and child care programs are

      potential resources that may help them identify available support services. Further,

      families indicate that they are often reluctant to make their needs known or pursue needed

      services.


      In order to meet Head Start, TANF and child care program goals and objectives relating

      to these families, there is value in enhancing needs assessments, referrals and provision of

      services. While we recognize that each program has specific missions and relates to States

      and grantees in different ways, these programs and missions converge around 

      low-income families trying to reach and maintain self-sufficiency. We suggest that ACF

      encourage the following promising practices to increase parent awareness and access to

      services through Head Start, TANF and child care:


      C	        Complete the needs assessment at intake or eligibility determination and
                periodically measure family progress. This may ensure that previously indicated
                needs, as well as emerging needs, are met. In addition, families may be more




    Families’ Needs Assessments                 22                                    OEI-05-98-00540
            comfortable expressing their needs as they become acquainted with a family
            service worker or caseworker.

  C          Include questions on the needs assessment regarding what other agencies and
            services families are currently accessing. This may allow agencies to avoid
            duplication of services and conflicting service plans, as well as to facilitate the
            coordination of resources.

  C	        Increase staff and program awareness of available support services in the
            community through training, interagency information exchange and common
            resource books.

  C	        Include questions on the needs assessment that address general community needs.
            This may encourage families inhibited from expressing their personal needs to
            come forth with their problems and may help programs devise applicable
            workshops.

  C	        Sponsor on-site workshops and services for families if not accessible elsewhere in
            the community.

  C	        Establish formal referral processes and follow-up procedures to improve
            accountability of both staff and families.

  C	        Develop a comprehensive assessment tool for CCDF voucher management
            agencies. Needs assessments may be an effective way for CCR&Rs and child care
            programs to gain greater knowledge about the needs of their families and to
            develop strategies toward linking families with appropriate services.

  In addition to these opportunities for improvement, there is one other area that the Office
  of Inspector General (OIG) will evaluate. Since both agency and family interviews
  indicated that in most of the TANF agencies we visited, needs assessments and referrals to
  support services are not regularly being offered, the OIG will examine the degree to which
  States are complying with the law requiring them to “make an initial assessment of the
  skills, prior work experience and employability of each [TANF] recipient” and “to conduct
  a program ... that... provides parents with support services to enable them to leave the
  program and become self-sufficient.”




Families’ Needs Assessments                   23                                       OEI-05-98-00540
                      AGENCY COMMENTS

  In their written comments, ACF wanted to distinguish between their legal authority to
  require State compliance and their encouragement for States to move in directions viewed
  as model practices. They also wanted to document certain actions they had already taken
  to address some of the underlying concerns expressed in our report. The full ACF
  comments are contained in the Appendix. Where appropriate, we changed the report to
  reflect their comments and concerns.

  We recognize that the nature of the relationship between ACF and the States has
  significantly changed since PRWORA was implemented. The ACF’s primary role is to
  ensure States’ compliance with TANF and CCDF regulations, while PRWORA gives the
  States unprecedented authority to administer the programs according to their own policy
  choices. The State’s TANF programs that have emerged are in various stages of
  development. States are still experimenting with ways to meet the PRWORA goals of
  reducing welfare dependency and helping participants reach and maintain
  self-sufficiency.

  We agree with ACF that the nature, mission and goal of each State’s TANF program is
  not centered on family assessments. We further agree with ACF that TANF does not
  require States to enter into an individual responsibility plan with their clients. Our intent in
  the report is not to become overly focused on a certain kind of formal needs assessment,
  but rather to meet the self-sufficiency needs of low-income parents and families served by
  these three programs. In order to help clients become self-sufficient, States first have to
  know what needs have to be met. In reviewing case files and discussing individual parent
  and family needs, we did not find, for the most part, that needs were being appropriately
  identified, either in a formal or informal way. Therefore, we have maintained our first
  suggested action but deleted the word “assessment” to avoid the impression we are
  encouraging TANF agencies and Child Care programs to conduct the same type of formal
  assessments as Head Start grantees.

  The ACF supports the concept that all child care providers have information on
  community resources to assist families with assessments. We agree that many child care
  providers are not trained to do the assessment themselves, nor that they have sufficient
  resources to hire support service staff. However, we did not find examples of child care
  programs or State agencies in the sites we visited which emphasize linking families to
  community services which can provide assessments or needed services. We believe
  further attention should be focused on ensuring that parents receiving subsidized care have
  access to information about community resources.




Families’ Needs Assessments                 24                                      OEI-05-98-00540
  The ACF stated that some collaboration among these three programs takes place. We
  support this collaboration. We emphasize that focusing local-level collaboration around
  identifying and providing for families’ needs remains an opportunity for improvement. If
  families participate in two or three of these programs, local-level coordination can ensure
  a more focused plan for individual families and improve the efficiency of resource
  utilization.

  Finally, as welfare caseloads continue to drop, States are increasingly looking for ways to
  help remaining recipients make the transition from welfare to work. Many of the
  recipients remaining on the rolls face myriad personal and family problems which may
  hinder rapid employment and long-term attachment to the labor force. Appropriate
  identification of needs can enable States to provide or refer recipients to the services
  which will help facilitate a successful transition to employment and self-sufficiency.

  The Office of the Assistant Secretary for Management and Budget also commented on the
  report. They conceptually agree with the report, but point out that limited funding and the
  reduced Federal role in welfare administration may hamper the coordination efforts we
  recommend.




Families’ Needs Assessments                25                                     OEI-05-98-00540
                                                     APPENDIX

             Administration for Children and Families 

                 Comments on the Draft Report





Families’ Needs Assessments     26                        OEI-05-98-00540
